No. 18AIN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES
V.

DOMINIC LADALE WALTON
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT, via e-mail and first-class mail, postage prepaid, this
20th day of June 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 20, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST:
UNITED STATES V. DOMINIC LADALE WALTON
Kevin Joel Page
Jason Douglas Hawkins
Federal Public Defenders Office
Northern District of Texas
Suite 629
525 5. Griffin Street
Dallas, TX 75202
Direct: 214-767-2746
Fax: 214-767-2886
Email: loel page(fd.org
Email: jason hawkins(äfd.orq

